         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act – New Jersey
State Energy Program




OAS-RA-L-11-07                              April 2011
DOE F 1325.8

(08-93)
United States Government                                                               Department of Energy


Memorandum
          DATE:   April 15, 2011                                     Audit Report Number: OAS-RA-L-11-07
    REPLY TO
     ATTN OF:     IG-34 (A10RA035)
     SUBJECT:     Report on "The Department of Energy's American Recovery and Reinvestment Act –
                  New Jersey State Energy Program"
            TO:   Acting Assistant Secretary for Energy Efficiency and Renewable Energy

                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy's (Department) Office of Energy Efficiency and Renewable
                  Energy (EERE) provides grants to states, territories and the District of Columbia (states) in
                  support of their energy priorities through the State Energy Program (SEP). Based on
                  population and energy consumption, and after a review of proposed projects, EERE
                  allocated a total of $3.1 billion in American Recovery and Reinvestment Act of 2009
                  (Recovery Act) funds to the states. The grant awards were designed to help states achieve
                  SEP Recovery Act objectives, including preserving and creating jobs; saving energy;
                  increasing renewable energy sources; and reducing greenhouse gas emissions. EERE
                  program guidance held each state responsible for administering the SEP and for
                  implementing sound internal controls over the use of Recovery Act funds.

                  The State of New Jersey's (New Jersey) Board of Public Utilities (BPU) was assigned
                  responsibility for New Jersey's SEP. BPU received $73.6 million of SEP Recovery Act
                  funds – a 96-fold increase over New Jersey's Fiscal Year (FY) 2009 funding of $768,000.
                  BPU planned to fund $20.6 million in State grants, $36 million in Memorandums of
                  Understanding (MOU) with other State entities, about $16 million in energy rebates, and
                  budgeted about $1 million in administrative costs. Per the Recovery Act, the Department
                  was required to obligate the funds by September 30, 2010. The State was to have spent the
                  funds by April 30, 2012, the date specified in the grant agreement. As part of the Office of
                  Inspector General's strategy for reviewing the Department's implementation of the
                  Recovery Act, we initiated this review to determine whether New Jersey had internal
                  controls in place to ensure that the goals of the SEP and Recovery Act would be
                  accomplished efficiently and effectively.

                  CONCLUSIONS AND OBSERVATIONS

                  We found that New Jersey had developed and implemented a monitoring and tracking
                  system designed to ensure that Recovery Act funding was accounted for and properly
                  tracked. The State had also hired additional staff to assist in handling the significant
                  workload increase associated with the huge influx of Recovery Act funding.
However, consistent with our findings at the Department-level and various other states, we
found that New Jersey had not made significant progress in expending Recovery Act SEP
funds. Delays associated with complying with various regulatory requirements and
procedural issues have adversely affected the State's ability to meet the Recovery Act goal
of targeting projects that can be started expeditiously. Specifically, we found that more
than a year after being granted access to Recovery Act funds for the SEP, BPU had
encountered significant delays with implementing projects and initiatives and expending
funds. In fact, according to EERE, as of January 31, 2011, New Jersey had only expended
about $8.2 million or 11 percent of allocated SEP Recovery Act funds. It may be difficult
for BPU to spend all the SEP Recovery Act funds within Department deadlines as a result
of the slow spending rate to date and the fact that at least one subproject's planned
completion date extends to within days of the Department's April 2012 deadline for
spending the Recovery Act funds.

      Grants for State Sponsored Renewable Energy and Energy Efficiency Projects

New Jersey experienced delays in awarding and expending $20.6 million in Grants for
State Sponsored Renewable Energy and Energy Efficiency Projects (State Grants). As of
October 2010, BPU had yet to award one of its seven State Grants and had expended less
than $1 million in State Grant funding. This occurred, in part, because of the time it took
for the Department to provide and BPU to incorporate guidance for meeting Recovery Act
requirements into the State's standard agreement. Specifically, BPU had to develop terms
to cover monthly reporting, National Environmental Policy Act (NEPA), Buy American
Act references, and the mandatory flow down requirements for sub-recipients into New
Jersey's standard agreement terms and conditions. BPU officials told us that they did not
receive final guidance from the Department until December 2009, thus delaying issuance
of the final agreements.

The time required to comply with NEPA requirements had also adversely impacted project
implementation and the overall pace of spending. BPU officials told us that they had to
obtain NEPA approval from the Department for all Recovery Act projects. Although BPU
received its funding allocation for the State Grants in August 2009, it did not submit the
required paperwork for a NEPA determination by the Department until March 2010,
7 months later. In April 2010, the Department concluded that one of the projects required
further NEPA analysis due to potential environment impact. During the audit, we
expressed concern to the Department and New Jersey officials that it may be difficult for
the project to be completed by the April 30, 2012, deadline. BPU replaced the at-risk
project and submitted NEPA documentation to the Department in November 2010.

                  Memorandums of Understandings with State Agencies

New Jersey also experienced delays in implementing MOUs with other State agencies for
energy efficiency and renewable energy projects. For example, BPU was not able to
implement a $6 million MOU with the New Jersey Office of Energy Savings for installing
energy efficient equipment in State facilities until August 2010. BPU attributed the delays
to the time required to conduct project energy audits before installing energy efficient

                                      2
measures and to completion of other priority Recovery Act related tasks. The Office of
Energy Savings' project experienced other challenges that have further extended the
completion date for one of the subprojects to within several days of the April 30, 2012,
Recovery Act project completion deadline. Should the completion date slip, any costs not
incurred by the April 30, 2012, date specified in the agreement, may not be reimbursable to
New Jersey, as outlined in the grant agreement.

                       Regulatory Requirements and Other Matters

The Department and BPU officials informed us that regulatory requirements which had not
previously affected the SEP contributed to delays in selecting Recovery Act projects.
Specifically, the requirements of the Davis-Bacon Act, National Historic Preservation Act,
Buy American provisions of the Recovery Act, and NEPA have been applied to all
Recovery Act projects. BPU officials stated that Recovery Act projects were delayed while
additional internal controls were implemented to ensure compliance with these
requirements. For example, applicability of the Davis-Bacon Act delayed BPU's
residential programs to ensure that contractors and subcontractors would be paid local
prevailing wages.

In addition, BPU noted that the development of a Recovery Act implementation plan,
coupled with a limited staff and a transition in leadership within the Governor's office,
impeded its ability to expend Recovery Act funding in a more timely and effective manner.
BPU officials explained that there was a steep learning curve associated with understanding
and incorporating the many Departmental requirements related to the implementation of
the Recovery Act, such as additional controls, tracking, and reporting requirements. BPU
officials also identified a State hiring freeze as an additional impediment.

SUGGESTED ACTIONS

Because of the delay in starting projects, we suggest that the Department and New Jersey
closely monitor SEP spending in order to meet Recovery Act goals and ensure that all
funds are expended by Department deadlines.

No formal recommendations are being made in this report and a response is not required.
We appreciate the cooperation of your staff and the various Departmental Elements that
provided information or assistance.




                                     Daniel M. Weeber, Director
                                     Environment, Technology, and
                                        Corporate Audits Division
                                     Office of Inspector General

Attachment


                                     3
cc: Chief of Staff
    Assistant Director, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Liaison, Energy Efficiency and Renewable Energy, EE-3A
    Audit Liaison, National Energy Technology Laboratory




                                   4
                                                                                       Attachment


SCOPE AND METHODOLOGY

The audit was performed from April 2010 to January 2011. The scope of the audit was limited to
the State of New Jersey's (New Jersey) State Energy Program (SEP). We conducted work at New
Jersey's Bureau of Public Utilities (BPU) in Trenton and New Brunswick, New Jersey, and
obtained information from the Department of Energy's (Department) Office of Energy Efficiency
and Renewable Energy, and the National Energy Technology Laboratory (NETL). To accomplish
the audit objective, we:

      •   Reviewed Federal regulations and Departmental guidance and information related to the
          SEP and the American Recovery and Reinvestment Act of 2009 (Recovery Act);

      •   Reviewed New Jersey State legislation, plans and procedures related to SEP and the
          Recovery Act;

      •   Reviewed New Jersey's documents for sub-recipients of Recovery Act funds;

      •   Interviewed personnel from the offices of New Jersey's BPU, Treasury, Division of
          Law, and State Auditor; and,

      •   Held discussions with the NETL Project Officer responsible for New Jersey's SEP
          Program.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
based on our audit objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We did
not rely on computer processed data to accomplish our audit objective.

We briefed Department officials on January 12, 2011, and New Jersey officials on January 14,
2011. Department officials waived an exit conference.
                                                                IG Report No. OAS-RA-L-11-07

                                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
